           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      ADJUSTMENT OF WIDOW’S
        INSURANCE BENEFITS
      AT FULL RETIREMENT AGE


    May 2007       A-01-07-27122




 AUDIT REPORT




               .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      May 14, 2007                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Adjustment of Widow’s Insurance Benefits at Full Retirement Age (A-01-07-27122)


           OBJECTIVE
           Our objective was to determine whether the benefits to widow(er)s were properly
           adjusted when they attained full retirement age (FRA).

           BACKGROUND

           The Social Security Administration (SSA) administers the Old-Age, Survivors and
                                                                                  1
           Disability Insurance program under Title II of the Social Security Act. The program
           provides monthly benefits to retired or disabled workers and their families and to
           survivors of deceased workers.

           Some individuals are dually entitled to both disability benefits based on their own
           earnings history and widow’s benefits based on their deceased spouses’ earnings. 2
           Although disability benefits are generally not reduced based on the age of the
           beneficiary, widow’s benefits are reduced when beneficiaries elect to receive them prior
           to their FRA. However, if the widow’s benefit started when the disability benefit began
           or later, the widow’s benefits are adjusted—and the reduction for age is eliminated—
           when disability ends and retirement benefits are awarded. Usually, this occurs when




           1
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               Throughout our report, we use the term “widows” to include both widows and widowers.
Page 2 - The Commissioner


the beneficiaries attain FRA. 3 In December 2005, about 3.6 million beneficiaries were
dually entitled to both retirement benefits and widow’s benefits. 4

SSA staff are instructed to prepare manual diaries to control cases in which disability
beneficiaries become entitled to reduced widow’s benefits to ensure the appropriate
adjustments are made when disability ends and retirement benefits are awarded. 5 In
addition, SSA’s Title II Redesign system produces alerts when these beneficiaries attain
FRA. SSA staff then determine whether adjustments to the widow’s benefits are
needed. Because the Agency does not currently have an automated system to make
the necessary adjustments, employees must take manual actions to ensure these
beneficiaries are paid correctly.

In November 2006, an SSA employee informed us of a population of 10,210 widows
whose benefits appeared to not have been properly adjusted when they attained FRA.
We randomly sampled 200 beneficiaries from this population for detailed analysis.
(See Appendix A for additional information about our scope, methodology and sample
results.)

RESULTS OF REVIEW

We found that the benefits to most of the widows in our population were not properly
adjusted when the beneficiaries attained FRA. As a result, the widows were not paid all
of the benefits that were due them. Based on the results of our sample, we estimate
that about 9,751 beneficiaries were underpaid approximately $113.7 million through
November 2006. In addition, if SSA does not take action to correct the benefits paid to
these widows, we estimate they will continue to be underpaid about $137.8 million over
the rest of their lives. 6




3
 Social Security Act § 202(q)(3); 42 U.S.C. § 402(q)(3). FRA for people born before January 2, 1938 is
age 65. The FRA increases gradually until it reaches age 67 for people born January 2, 1960 or later.
Social Security Act § 216(l); 42 U.S.C. § 416(l). See also SSA’s Program Operations Manual System
(POMS), RS 00615.003.
4
    SSA, Annual Statistical Supplement, 2006 (Table 5.G2).
5
    SSA, POMS, RS 00615.482(C).
6
  To estimate the amount of additional benefits that will be owed these widows in the future, we multiplied
the last monthly underpayment amount by the number of months the beneficiaries are expected to live
beyond November 2006. We used the life expectancy rates published by the Department of Health and
Human Services, Centers for Disease Control and Prevention (National Vital Statistics Report, Vol. 54,
No. 14, Table A, April 19, 2006).
Page 3 - The Commissioner


SAMPLE RESULTS

SSA did not properly adjust the benefits to 194 of the 200 widows in our sample (about
                                             7
97 percent) when the widows attained FRA. Although the Agency detected 3 of these
cases prior to our audit and took corrective action, the remaining 191 cases went
unresolved. These 191 widows were owed approximately $2.2 million through
November 2006.

For example, one widow attained age 65 in August 1997 and her disability benefits
were converted to retirement benefits. At that time, she was entitled to receive an
additional $222 per month in widow’s benefits. As of November 2006—when she was
74 years old—her benefits had not been adjusted and, as a result, she was owed
approximately $27,869. Unless SSA takes action to correct her benefit payments, we
estimate she will continue to be underpaid an additional $31,947 in the future.

We found that 27 of the 191 underpaid widows in our sample died and never received
the additional amounts due them. The widows were owed about $260,039 prior to their
deaths. For example, one widow attained age 65 in January 1993. At that time, SSA
should have begun paying her an additional $103 per month in widow’s benefits. She
died in August 2006 (at the age of 79) without receiving the additional $19,827 that was
owed her.

Because SSA does not currently have an automated system to make the necessary
adjustments, manual actions are needed to ensure the widows are paid correctly.
Agency staff acknowledged that these cases are error prone. SSA’s Office of
Automation Support is in the planning and analysis stages of automating dual
entitlement processing in the Title II Redesign system. SSA’s Office of Quality
Performance plans to begin a project to identify all beneficiaries—living and
deceased—whose widow’s benefits were not properly adjusted when disability benefits
ended and retirement benefits began.

SSA’s Office of Systems could not confirm whether the cases in our audit were
previously identified and alerted through its automated systems. Therefore, we could
not determine whether the benefits went uncorrected because the cases were not
identified for adjustment, or whether they were in fact alerted but were not properly
corrected by SSA staff.

UNDERPAYMENTS TO THE WIDOWS IN OUR POPULATION

We estimate that about 9,751 of the 10,210 beneficiaries in our population were
underpaid because their benefits were not adjusted when they attained FRA and their
disability benefits were converted to retirement benefits. On average, 121 months (or
10 years) elapsed since the beneficiaries attained FRA. The following table

7
  The remaining six cases in our sample were not underpaid because either: (1) they were entitled to
widow’s benefits before receiving their own disability benefits, or (2) their widow’s benefits were subject to
the benefit limitation provisions of Social Security Act § 202(e)(2)(D), 42 U.S.C. § 402(e)(2)(D).
Page 4 - The Commissioner


summarizes the number of months that the beneficiaries in our population have been
potentially underpaid. 8

                     Period Potentially           Number of
                                                                       Percent
                        Underpaid                Beneficiaries
                        Up to 3 years                       556                5%
                        4 to 6 years                      1,469               14%
                        7 to 9 years                      3,285               32%
                       10 to 12 years                     2,633               26%
                       13 to 15 years                       885                9%
                       16 to 18 years                       617                6%
                       19 to 21 years                       264                3%
                       Over 21 years                        501                5%
                           Total                         10,210             100%
                      Average Period                        10 Years
                       Median Period                         9 Years


CONCLUSION AND RECOMMENDATIONS

The benefits to most of the widows in our population were not properly adjusted when
the beneficiaries attained FRA. As a result, we estimate they have been underpaid
about $113.7 million through November 2006. In addition, we estimate these widows
will continue to be underpaid about $137.8 million in the future unless SSA takes action
to correct the benefits paid to them. Therefore, we recommend SSA:
    1. Review the 10,210 cases in our population and take action to pay the additional
       amounts due the widows.
    2. Remind staff of the proper procedures for: (a) establishing diaries when
       adjustments will be needed in the future; and (b) adjusting widow’s benefits when
       disability ends and retirement benefits are awarded.
    3. Review the automated programs in use and modify them if necessary to ensure
       all widows’ cases requiring adjustment are properly identified and controlled.




8
 This represents the number of months that elapsed between the dates the beneficiaries attained FRA
and the earlier of their dates of death or November 2006, when we obtained our data.
Page 5 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. (See Appendix B.)




                                          Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Scope, Methodology and Sample Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                                Appendix A

Scope, Methodology and Sample Results
To accomplish our objective, we:

       Reviewed applicable sections of the Social Security Act and Social Security
        Administration (SSA) regulations, policies and procedures.

       Obtained a file of the 10,210 beneficiaries—identified by an SSA employee in
        September 2004—whose benefits appeared to have not been properly adjusted
        when they attained full retirement age (FRA) and their disability benefits were
        converted to retirement benefits. 1

       Randomly sampled 200 beneficiaries from the population for detailed analysis.
        For each sampled beneficiary, we reviewed the electronic benefit records on
        SSA’s systems.

            If benefits should have been adjusted at FRA but were not, we calculated
             the amount of benefits that should have been paid between the
             beneficiary’s FRA and the earlier of: (1) November 2006, or (2) his/her
             date of death.

            If the beneficiary was currently receiving benefits, we multiplied the last
             monthly underpayment amount by the number of months the beneficiary
             was expected to live beyond November 2006, to estimate the amount of
             additional benefits that will be owed in the future. 2

       We consulted staff in SSA’s Office of Systems to gain an understanding of how
        the Agency’s systems identify these cases.

We performed our audit between November 2006 and January 2007 in Boston,
Massachusetts. We tested the data obtained for our audit and determined it to be
sufficiently reliable to meet our objective. The principal entities audited were SSA’s
Program Services Centers under the Deputy Commissioner for Operations and the
Office of Retirement and Survivors Insurance Systems under the Deputy Commissioner
for Systems. We conducted our audit in accordance with generally accepted
government auditing standards.

1
  Because the population included widows who were receiving benefits in 2004, we are working with SSA
to identify all widows who are currently receiving benefits and who may be underpaid.
2
  We used the life expectancy rates published by the Department of Health and Human Services, Centers
for Disease Control and Prevention (National Vital Statistics Report, Vol. 54, No. 14, Table A,
April 19, 2006).


                                                 A-1
POPULATION AND SAMPLE INFORMATION

                  Table 1: Population by Program Service Center.
                                                                  Number of
                    Responsible Program Service Center
                                                                 Beneficiaries
                  Northeastern Program Service Center                     2,090
                  Mid-Atlantic Program Service Center                     1,584
                  Southeastern Program Service Center                     1,403
                  Great Lakes Program Service Center                      1,533
                  Western Program Service Center                          2,037
                  Mid-America Program Service Center                      1,449
                  Office of International Operations                       114
                                     Total                              10,210



Table 2: Population by State.
    State                         Count                 State                       Count
    Alabama                         135                 Montana                       57
    Alaska                           18                 Nebraska                      34
    Arizona                         208                 Nevada                        83
    Arkansas                        158                 New Hampshire                 73
    California                    1,120                 New Jersey                   349
    Colorado                        195                 New Mexico                    50
    Connecticut                     138                 New York                     850
    Delaware                         36                 North Carolina               231
    District of Columbia             13                 North Dakota                  41
    Florida                         551                 Ohio                         423
    Georgia                         226                 Oklahoma                     133
    Hawaii                           27                 Oregon                       170
    Idaho                            57                 Pennsylvania                 537
    Illinois                        416                 Puerto Rico                  221
    Indiana                         168                 Rhode Island                  77
    Iowa                            103                 South Carolina               158
    Kansas                           49                 South Dakota                  37
    Kentucky                        124                 Tennessee                    170
    Louisiana                       147                 Texas                        400
    Maine                            89                 Utah                          76
    Maryland                        105                 Vermont                       40
    Massachusetts                   311                 Virginia                     148
    Michigan                        355                 Washington                   231
    Minnesota                       120                 West Virginia                111
    Mississippi                     114                 Wisconsin                    177
    Missouri                        219                 Wyoming                       17
                                                        Outside the United States    114




                                                A-2
  Table 3: Population and sample size.
  Population Size                                                                                      10,210
  Sample Size                                                                                             200



 Table 4: Beneficiaries who were underpaid because their benefits were not properly adjusted
 when disability ended and retirement benefits were awarded at full retirement age.
                                                                      Additional benefits   Estimated additional
                                      Number of widows                  owed through        benefits to be owed
                                                                       November 2006        after November 2006
 Identified in Sample                              191                       $2,227,658            $2,699,483
 Point Estimate                                 9,751                     $113,721,946           $137,808,597
 Projection Lower Limit                         9,425                     $102,365,525           $121,822,335
 Projection Upper Limit                         9,966                     $125,078,367           $153,794,858
Note: All projections are at the 90 percent confidence level.




 Table 5: Beneficiaries in Table 4 who died before receiving the additional benefits due them.
                                                                      Number of widows       Dollars Underpaid
 Identified in Sample                                                           27                   $260,039
 Point Estimate                                                              1,378                $13,274,991
 Projection Lower Limit                                                        995                 $8,275,097
 Projection Upper Limit                                                      1,846                $18,274,885
Note: All projections are at the 90 percent confidence level.




                                                                A-3
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      April 25, 2007                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Adjustment of Widow's Insurance Benefits
           at Full Retirement Age" (A-01-07-27122)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ADJUSTMENT OF WIDOW’S INSURANCE BENEFITS AT FULL
RETIREMENT AGE” (A-01-07-27122)

Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should review the 10,210 cases in our population and
take action to pay the additional amounts due the widows.

Response

We agree. The processing centers will complete reviewing the 10,210 cases by the end of fiscal
year 2007.

Recommendation 2

SSA should remind staff of the proper procedures for: (a) establishing diaries when adjustments
will be needed in the future; and (b) adjusting widow's benefits when disability ends and
retirement benefits are awarded.

Response

We agree. We will issue an Administrative Message (AM) with reminders in April 2007.
Specifically, the AM will cover: (a) establishing diaries when adjustments will be needed in the
future; (b) adjusting widow's benefits when disability ends and retirement benefits are awarded;
and (c) explaining the benefit rules to members of the public to help widow(er)s make
appropriate claim decisions and better inform them of the benefits that will be available once full
retirement age is reached.

Recommendation 3

SSA should review the automated programs in use and modify them if necessary to ensure all
widows' cases requiring adjustment are properly identified and controlled.

Response

We agree. Our policy and operations staff will review the existing automated programs in use
and explore options to modify them to ensure all widows’ cases requiring adjustment are
properly identified and controlled.

[SSA also provided technical comments.]


                                                B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

   Jeffrey Brown, Audit Manager (617) 565-1814

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-27122.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
